<html>
<title> - A REVIEW OF THE COAST GUARD'S SEARCH AND RESCUE MISSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
        A REVIEW OF THE COAST GUARD'S SEARCH AND RESCUE MISSION
=======================================================================

                                (111-64)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION
                               __________

                           September 30, 2009
                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




                              __________

                        U.S. GOVERNMENT PRINTING OFFICE
52-608 PDF                    WASHINGTON: 2009
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; 
(202) 512-1800  Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 
20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)




        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

CORRINE BROWN, Florida               FRANK A. LoBIONDO, New Jersey
RICK LARSEN, Washington              DON YOUNG, Alaska
GENE TAYLOR, Mississippi             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          TODD RUSSELL PLATTS, Pennsylvania
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
MICHAEL E. McMAHON, New York
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Brice-O'Hara, Rear Admiral Sally, Deputy Commandant For 
  Operations, United States Coast Guard..........................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

McMahon, Hon. Michael E., of New York............................    27
Richardson, Hon. Laura, of California............................    30

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Brice-O'Hara, Rear Admiral Sally.................................    34

                       SUBMISSIONS FOR THE RECORD

Brice-O'Hara, Rear Admiral Sally, Deputy Commandant For 
  Operations, United States Coast Guard:
      Response to question from Rep. Elijah Cummings, a 
        Representative in Congress from the State of Maryland....    11
      Response to question from Rep. Laura Richardson, a 
        Representative in Congress from the State of California..    21

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



        A REVIEW OF THE COAST GUARD'S SEARCH AND RESCUE MISSION

                              ----------                              


                     Wednesday, September 30, 2009

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Elijah E. 
Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. The Committee will come to order.
    The Subcommittee convenes today to examine the Coast 
Guard's search and rescue mission, in other words known as 
"SAR."
    The SAR mission is one that the Coast Guard performs on a 
daily basis, and it is a mission central to what our Coast 
Guard is: a service of guardians willing to risk their own 
lives to save those in peril.
    The SAR mission is also a mission that the Coast Guard 
generally performs with great efficiency and with exceptional 
distinction. Every year, the service responds to tens of 
thousands of persons in distress and saves thousands of lives. 
I often speak of their role in Katrina, when they saved well 
over 30,000 people, many of whom would not be with us today if 
it were not for their heroic efforts.
    In fact, in 2007, I joined the service in celebrating the 
one-millionth life saved since the formation of the Revenue 
Cutter Service in 1790. This is an astounding milestone and one 
of which the Coast Guard and, indeed, the entire Nation are 
rightfully proud.
    That said, there have been several recent cases in which, 
by the Coast Guard's own account, avoidable failures occurred 
in the prosecution of SAR cases. And these cases point to 
problems that appear to echo problems we have seen in other 
mission areas, particularly marine safety.
    Having, in particular, the SAR cases involving Buona Madre 
and the Patriot in great detail, it appears that, in the most 
general terms, the failures associated with these cases 
occurred not because policies that clearly direct how a 
response should be conducted and that clearly call for a, 
quote, "bias toward action," unquote, were not in place, but 
because, for a variety of reasons and in the face of cases that 
were admittedly complex and ambiguous, these policies were not 
implemented.
    In the case of the Buona Madre, a 28-foot wooden hull 
fishing vessel was essentially run over by the motor vessel, 
Eva Danielsen, on July 13, 2007. At the time the incident 
occurred, the Eva Danielsen reported to the Vessel Traffic 
Service in San Francisco that it may have collided with a 
fishing vessel. However, subsequent investigation by the VTS, 
which actually should not have been involved in prosecuting 
what was even then a potential SAR case, and the Sector San 
Francisco's command center concluded on the 13th of July that 
no collision had occurred. Therefore, assets that were within 
34 minutes of arriving at the scene of the collision were 
called off, and no further investigations were conducted until 
the morning of July 14th, when the body of the operator who had 
been onboard the fishing vessel was discovered dead in the 
water.
    In the case of the fishing vessel Patriot, the first Coast 
Guard district, Sector Boston, and Station Gloucester, spent 2 
hours and 23 minutes examining a potential SAR case before 
launching assets. The circumstances of this case were, indeed, 
very complex. However, even as facts suggesting a possible 
distress began to accumulate and even though a launch of assets 
was recommended at several different points, Coast Guard 
personnel continued to investigate rather than to launch. In 
this case, it is likely that both of the individuals on the 
Patriot probably died and the vessel had sunk before the Coast 
Guard was even alerted to the possible crisis. However, the 
subsequent investigation uncovered what the Coast Guard, 
itself, calls an "inefficient response" that revealed several 
procedural training and judgment shortfalls. Those are the 
Coast Guard's words.
    While the administrative investigation into this case 
highlights these individual shortfalls, the one issue on which 
the investigation's final memorandum spends considerable time 
and which is probably the most troubling is the lack of 
experienced watchstanders on duty at the time of the Patriot 
incident.
    In plain language, the final action memorandum concluding 
the investigation of this case, signed by Vice Admiral Robert 
Papp, commander of the Atlantic Area Command, states, and I 
quote, "The actions and judgments exhibited by both the First 
District and Sector Boston Command Center watchstanders call 
into question the qualifications and staffing procedures at 
both the sector and district levels for the command center," 
end of quote. That is a very, very troubling statement.
    This finding is particularly troubling because it eerily 
recalls the findings of the National Transportation Safety 
Board in its safety recommendation report concerning the 
Morning Dew accident that occurred in December of 1997. In that 
recommendation, the safety board wrote, and I quote, "In order 
to appropriately assess the situation and respond correctly in 
atypical situations, watchstanders must have the ability to 
skillfully apply judgment and analytical thinking to the 
watchstanding task," end of quote.
    The Patriot case was clearly an atypical case, as to some 
degree was the Buona Madre case. And the administrative 
investigation into the Patriot case makes clear that, when 
confronted with an atypical situation, the First District and 
Sector Boston's prosecution of the incident exhibited 
significant failures at critical portions of the case.
    The investigation into the Buona Madre highlighted a number 
of failures on the part of the Sector San Francisco command 
center but, frankly, didn't examine whether these were due to 
the inexperience of command center staffers. This would be 
important to know.
    The memorandum on the Patriot case also harkens back to the 
NTSB report on the Morning Dew on another point. Today, as at 
the time of the Morning Dew accident more than a decade ago, 
individuals in supervisory capacities often stand 24-hour 
watches and can sleep during portions of those watches. In some 
cases, supervisory personnel can even consult from home.
    In the Morning Dew, the communications watchstander on duty 
at the time did not awaken the duty officer who was sleeping 
nearby. The watchstander stated that he did not feel, quote, 
"negative pressure or reluctance to awaken the duty officer. He 
simply did not think it was necessary," end of quote.
    In the Patriot incident, there was a long delay in waking 
duty officers. According to administrative investigations, the 
command duty officer at Sector Boston was not awakened by 
watchstander personnel until 1 hour and 44 minutes after the 
sector received notification of this case, a case that we now 
know as the Patriot case.
    The administrative investigation into the matter notes 
that, and I quote, "The fact that both the sector and district 
command duty officer, CDO, were asleep at the time of the 
incident may have played a role in the relatively inefficient 
processing and analysis of case information," end of quote. The 
investigation notes that failure to notify the CDOs and other 
senior members of the SAR chain of command contributed to 
launch delays.
    The Patriot investigation also notes that requiring CDOs to 
stand a 24-hour watch that includes sleep time means that, 
potentially, the most experienced watchstander won't be 
available when time-critical decisions have to be made. 
Responding to this finding, Admiral Papp ordered units in the 
Atlantic Area to identify those sectors in which duty officers 
were keeping 24-hour watches and to convert 24-hour watches to 
12-hour watches where staffing permits.
    Finally, according to information provided to the 
Subcommittee, this review has found that there is not adequate 
staffing to allow all of the 24-hour positions to be converted 
to 12-hour positions.
    The longer I am Chairman of this Subcommittee, the more I 
begin to see similar patterns repeat themselves. And the one 
pattern that I see over and over and over again is how 
stretched the Coast Guard is and how, at times, despite its 
best intentions, gaps inevitably appear. It was just the other 
day that Ranking Member LoBiondo talked about this and how it 
is so important that we make sure--and I agree with him 
totally--that we have the personnel that we need for this 
stretched mission.
    The issues before us today are very complex and subtle, and 
I look forward to a detailed examination of them. I also 
commend the Coast Guard for its thorough examination of these 
cases, its candor, and for laying bare the problems that it has 
found. There is no way that we can be the great Coast Guard 
that we are, and are becoming, unless we have honesty, 
integrity, and forthrightness.
    That said, the question now becomes, are SAR operations 
and, frankly, sector command centers organized and staffed in 
the best possible manner? If the answer to that question is 
"no"--I fear that, at least at some times, in some sectors, 
that is the answer--we must then understand what needs to be 
done to ensure that SAR operations and command centers are 
organized as efficiently as possible.
    To put it simply, each SAR case represents a life on the 
line. Each SAR case represents a family member--a father, a 
sister, a brother, a mother. And we must ensure that the hand 
extended to those in distress is as strong as it can possibly 
be. And I say that we can do better, and we will.
    With that, I am going to yield to our distinguished Ranking 
Member, Mr. LoBiondo.
    Mr. LoBiondo. Well, thank you, Mr. Chairman, very much for 
holding this hearing.
    Of the Coast Guard's many missions, search and rescue, I 
think, is the one that the public most closely associates with 
the service. From the coverage during Hurricane Katrina to the 
countless television programs and films that we have seen, 
especially in recent years, Americans regularly see images of 
Coast Guardsmen responding to urgent calls for help at sea, 
often in the most challenging of conditions. These first 
responders are true professionals, and I commend the Coast 
Guard for this incredible service to the American public.
    However, while the vast majority of the Coast Guard's 
search and rescue missions are carried out with great success, 
the Subcommittee will be looking this morning for a few 
instances where the Coast Guard's response was faulted. The 
underlying connection between many of these cases seems to be 
due to inadequate training or experience among the search and 
rescue personnel at Coast Guard command centers and a failure 
of those personnel to comply with standard procedures governing 
search and rescue missions. While these cases are rare, they do 
point to a need for continued efforts to improve mission 
performance and capabilities.
    The Coast Guard is in the process of acquiring new tools 
and assets that will enhance the search and rescue mission. The 
Rescue 21 communication system is already in place in 17 Coast 
Guard sectors and is providing direction-finding capabilities 
to command centers monitoring more than 28,000 miles of U.S. 
coastline.
    The service is also acquiring new small boats and coastal 
patrol boats under the Response Boat-Medium and Deepwater 
projects, which will provide servicemen enhanced and more 
reliable platforms to respond to calls for help. Both of these 
programs have had their setbacks, however. It is of the utmost 
importance for these new, more capable assets to be added to 
the Coast Guard's fleet as soon as possible and at the best 
price to the American taxpayer.
    Professional mariners and recreational boaters are aware of 
the potential dangers that they face each time they leave port, 
but they do this with the knowledge that the Coast Guard is 
prepared to respond to any future calls of distress. I hope 
this hearing will provide the Subcommittee with the information 
and recommendations necessary to further improve mission 
performance.
    I want to thank Admiral Brice-O'Hara for appearing this 
morning and for taking on the new job of coordinating the Coast 
Guard planning, policies, and procedures as the new deputy 
commandant of operations. I look forward to discussing your 
plans to enhance the service's mission execution in this newly 
created position.
    And, finally, I want to note that Coast Guard crews are 
responding to the tsunami in American Samoa as we speak. While 
information regarding the situation in the territory is pretty 
spotty at the moment, the Coast Guard, in conjunction with 
other Federal agencies, has dispatched emergency management, 
law enforcement, pollution investigators, and other qualified 
personnel to restore basic governmental functions. This, again, 
demonstrates the service's capabilities to quickly respond to 
emerging situations, and I want to commend them for their rapid 
response.
    Mr. Cummings. Thank you very much.
    Mr. McMahon?
    Mr. McMahon. Thank you, Chairman Cummings and Ranking 
Member LoBiondo. And a special welcome and a thank you to Rear 
Admiral Brice-O'Hara for your testimony this morning.
    I represent Staten Island and Brooklyn, New York, which 
certainly have a long history with the Coast Guard, having been 
an original base of the Light House Service now since 1997 and 
hosting the Coast Guard's main facility for New York Harbor.
    And through that time, we have had great experiences with 
the bravery and expertise of the members of the Coast Guard, 
whether it was just recently with the downing of Flight 1549 in 
the Hudson River and the way that lives were saved there thanks 
to your expertise; and also with the crash of the Staten Island 
Ferry, which is near and dear to our hearts, and the work that 
you have done in making sure that that fleet of ships now, if 
you will, operates in a much more professional manner. And 
certainly, with the events of 9/11 and the heightened level of 
security that we have in the port, the role that the Coast 
Guard takes in doing that is something that we are very 
grateful for.
    So we are grateful for your work, Rear Admiral, and for all 
of that of the men and women of the Coast Guard. And we look 
forward to your important testimony today in terms of the 
search and rescue procedures that are in place, what needs to 
be done in the future, and how it will affect our harbor back 
in New York.
    Thank you, Mr. Chairman. I yield the remainder of my time 
and will submit more formal remarks for the record. Thank you, 
sir.
    Mr. Cummings. Thank you, Mr. McMahon.
    Mr. Coble?
    Mr. Coble. Thank you, Mr. Chairman. I have a very brief 
opening statement.
    I want to associate myself with the remarks of the 
gentleman from New Jersey. I think, of all of the duties the 
Coast Guard performs, search and rescue is the one that 
probably most people synonymously associate with the Coast 
Guard.
    Each of us, Mr. Chairman and Mr. LoBiondo, holds the Coast 
Guard and their service to our Nation in the highest regard. I 
believe our mutual goal is to provide effective oversight to 
assure that the service maintains its high standards.
    For this reason, I appreciate the Chairman calling this 
hearing, because, despite some of our best efforts, there is 
always room for improvement. I hope it will provide an 
opportunity for constructive feedback and dialogue to ensure 
the safety and security of the hundreds of mariners and of our 
Coast Guard men and women.
    And, finally, Admiral, good to have you with us today.
    And, Mr. Chairman, I yield back.
    Mr. Cummings. Thank you very much, Mr. Coble.
    Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman.
    And thank you.
    I am sorry I have arrived a little late, but I represent 
New York 1, which is the eastern half of Long Island, so I 
represent a great deal of coastline. And I have to say that my 
interactions with the Coast Guard since I have come to office 
have been uniformly superior. The Coast Guard is an entity that 
is one that does great service to our area.
    And I look forward to your testimony, and I will have a few 
questions for you when you are done. Thank you very much.
    Mr. Cummings. Thank you very much, Mr. Bishop.
    We now welcome our panelist, Rear Admiral Sally Brice-
O'Hara, who is the deputy commandant for operations with the 
United States Coast Guard.
    Rear Admiral, thank you very much for being with us, and we 
look forward to your testimony.

TESTIMONY OF REAR ADMIRAL SALLY BRICE-O'HARA, DEPUTY COMMANDANT 
           FOR OPERATIONS, UNITED STATES COAST GUARD

    Admiral Brice-O'Hara. Good morning, Mr. Chairman and 
distinguished Members of the Subcommittee. Thank you for your 
comments, and thank you for the opportunity to provide a 
written statement, which you already have. It is certainly an 
honor to appear before you to discuss the Coast Guard's search 
and rescue program.
    As a Coast Guardsman with more than three decades of 
service, I have dedicated much of my career to our search and 
rescue mission. I have served as a station commanding officer, 
as a group commander in a group that was a precursor to the 
sectors that we now have deployed across the Nation. More 
recently, I have commanded two of our districts: the Fifth 
District in the mid-Atlantic coastal region and the 14th 
District in the Pacific.
    And, certainly, this morning, my heart and prayers are with 
those in American Samoa, where we have Coast Guard members 
stationed, as well as many friends, associates, and other 
citizens there who are at great risk.
    I am incredibly proud of the Coast Guard's rich heritage as 
a humanitarian service dedicated to rescuing those in peril on 
the sea. Our motto, "Semper Paratus," is a constant reminder 
that we must retain a bias for action. Our success demands 
readiness that is founded on good training and good equipment, 
blended with courage, dedication, and vigilance of our men and 
women.
    Let me start by citing a few figures.
    In 2008 alone, the Coast Guard prosecuted more than 24,000 
search and rescue cases. We saved 4,910 lives, assisted an 
additional 31,628 people in distress, and we protected property 
worth in excess of $158 million. I attribute these remarkable 
outcomes to our relentless pursuit of search and rescue mission 
excellence and to our continual investment in our people, in 
our equipment, and in our infrastructure.
    In recent years, we have significantly improved our ability 
to detect, locate, and respond to mariners in distress. Rescue 
21 is replacing our antiquated National Distress and Response 
System to enable superior communications and to help us take 
the "search" out of search and rescue. The Search and Rescue 
Optimal Planning System, better known as SAROPS, has proven to 
be one of the most advanced search and rescue planning tools in 
the world. The Response Boat-Medium will bring us speed, better 
sea-keeping and integrated navigation capabilities that will 
enable better response operations. We have introduced 
direction-finding equipment on our search aircraft.
    These are but a few of many investments that will more 
accurately direct our waterborne and aviation assets, which 
ultimately will save time, money, and, most importantly, lives. 
And I want to thank you, Members of Congress, for your support 
of these enhancements.
    At the core of our search and rescue mission performance 
are the men and women who stand the watch at the command 
centers in our nine districts and 35 regional sectors. They are 
always ready for the call. It is a combination of highly 
trained military and civilian professionals who staff these 
command centers around the clock. They manage distress 
communications, plan and coordinate searches, and oversee the 
operations.
    The Coast Guard is wholly committed to building the 
competence of this critical cadre. Sound training and 
education, a formal qualification process, combined with 
standardized policies and procedures, will help maintain their 
edge.
    Additionally, in 2003, the Coast Guard established the 
Operations Specialist Rating. That is the backbone of our 
search and rescue command and control workforce. They bring 
operational savvy to our command centers, as well as broad 
perspectives gained from serving across the Coast Guard. That 
diversity of experience hones their judgment and decision-
making.
    We have incorporated dedicated civilian employees into 
standing the watch with leadership, continuity, and invaluable 
expertise. Every segment of our workforce fulfills key roles in 
the SAR program.
    We continue to augment our watches with additional 
positions--218 new positions in fiscal year 2009. Policy and 
procedural compliance is essential. To that end, we have a 
Command Center Standardization Team which visits our units. 
They spend 3 days on-site to conduct a thorough and independent 
review of performance and then to report that back to the 
sector and district leadership.
    Today, I can unequivocally state that we are better 
equipped, better organized, and better trained to meet the 
public's expectations for world-class SAR performance. But even 
with improved systems, enhanced training, and our very best 
efforts, mariners will continue to be lost at sea. Despite 
sophisticated technology, search and rescue remains a mixture 
of art and science. A SAR case is impacted by human factors 
that range from the sketchy initial reports that come in from 
panicked mariners to our own Coast Guard members making 
judgment calls under the most pressing of circumstances. The 
sea is a dangerous and unforgiving place.
    We will never be satisfied with our efforts until we study 
and learn why a life was lost. That is why we aggressively 
review our actions for potential systemic improvements. That is 
why we continually review the SAR system and individual 
performance. That is why we undertake rigorous self-examination 
so that we may continuously learn, so that every distressed 
mariner has the best chance of rescue.
    Before I close, let me also note that we also must take 
every forum to educate and encourage boaters, fishermen, and 
commercial mariners to also adopt prudent safety/self-help 
measures so that they, too, are doing all that they can to be 
prepared in the event of an emergency.
    Mr. Chairman and distinguished Members, I thank you for 
supporting the Coast Guard as you do. And I stand ready to 
answer your questions. Thank you.
    Mr. Cummings. Thank you very much, Rear Admiral.
    I want to go back to something that Mr. Coble said a moment 
ago, and I want to make it very clear--because he is absolutely 
right; there is nothing that he said that I disagree with--but 
I want to make it clear that this hearing is about making sure 
that we are the best that we can be. This is not one of these 
sessions where we are trying to just tear apart. We are just 
trying to see where the possible gaps are so that we can do 
what we need to do to help you accomplish everything that you 
have to accomplish.
    And I want to thank you, Mr. Coble, for your statement.
    Admiral, you wrote in your testimony, "Our command and 
control organization, improved by the creation of Coast Guard 
sectors, places officers with demonstrated experience and sound 
judgment in critical leadership positions."
    In your statement just now, I think you sort of reiterate 
this. But, as I discussed in my opening statement, the 
administrative investigation into the Patriot case would not 
seem to demonstrate that claim.
    On duty at the time of the case in the sector command 
center was a lieutenant, junior grade, as the command duty 
officer, for whom this was the first assignment outside of the 
academy, who had attended SAR school but not received a SAR 
qualification and who, because of the length of the watch to 
which that person was assigned, was asleep at the time the 
initial calls on what became the Patriot case came to the 
command center.
    The operations unit controller did have 23 months of 
experience as a SAR-qualified watchstander, but the 
communications watchstander and the situation unit watchstander 
had a combined total of 4 months of experience in their 
positions, and neither of them had the SAR qualification.
    In fact, Admiral Papp's memo notes that these two 
individuals had limited experience and, thus, limited ability 
to assist the sector OUC. Now, those are Admiral Papp's words, 
not mine. The memo also notes he at times felt overwhelmed by 
the sheer volume of calls he was handling with the district and 
other actors during the management of this case.
    My question is this: Did the staffing in the Sector Boston 
command center during the Patriot case really represent the 
placement of officers with demonstrated experience and sound 
judgment in critical leadership positions?
    Admiral Papp's memorandum would suggest that, at the time 
of the Patriot case, Sector Boston was not staffed with the 
watchstanders who had the ability to skillfully apply judgment 
and analytical thinking to the watchstanding task.
    And I was just wondering what--I mean, could you answer 
that, in light of what you have said?
    Admiral Brice-O'Hara. Mr. Chairman, as somebody who has 
overseen SAR operations at multiple levels within the Coast 
Guard, I will tell you, first and foremost, that we have to 
instill within our watchstanders a complete sense that any 
question, any need for assistance in standing their watch 
tautly and properly should never be considered something 
embarrassing. They should always have the understanding that 
they should call someone else as they become immersed in 
situations that may be out of the ordinary, something different 
than what they have prosecuted before.
    Mr. Cummings. You are saying that that is part of their 
training?
    Admiral Brice-O'Hara. I am saying that that is something 
that we need to ensure every district commander and sector 
commander discusses forthrightly with all of their 
watchstanders.
    In my own experiences, I have spent a lot of time talking 
with my watch so that I knew what caliber of individual they 
were, what their background was, where we might need to shore 
up and improve their abilities, and mentor and guide and 
appropriately steer them to be able to continually raise their 
abilities and capabilities. So I think, first and foremost, 
leadership.
    But then, in addition to that, sir, I also want to point 
out that there are several individuals who can be contacted 
during the course of a watch. We have talked a lot about the 
command duty officer as a source of reference. We also have a 
supervisor of each watch position within the command center. We 
have a command center chief. Usually, that command center chief 
is at the lieutenant commander level--very, very experienced in 
their craft. And then above that person we have the response 
department head, another individual who is very experienced. 
Both the response department head and the command center chief 
must be SAR-qualified to hold those positions.
    So we have several other steps in the chain of command that 
our watchstanders can turn to for advice and assistance in 
prosecuting the watch. I have never been at a unit, sir, where 
there was not regular interaction between watchstanders and 
their chain of command, particularly the command center chief 
and the ops boss in the group days, now the response department 
chief under the sector construct.
    Mr. Cummings. Well, let me ask you this: How common is it 
for such a group of, frankly, relatively inexperienced 
individuals to be placed together in a sector command center, 
noting that the sectors are where most SAR cases are managed?
    And let me just ask you this one, too. I understand all of 
what you just said. I guess my question is,you know, when we 
look at another parallel between the Morning Dew case and the 
Patriot case, in the Morning Dew case the communications 
watchstander did not awaken the duty officer, who was sleeping. 
He stated that he did not feel--and this is his statement--
"negative pressure or reluctance to awaken the duty officer. He 
simply did not think it was necessary," unquote.
    Now, it is one thing to have all of these experienced 
people in place. I still want to go back to my first question, 
too. But is there something that we are missing? I mean, we 
were running into problems because somebody just didn't think 
it necessary. I mean, is this a perception problem? I mean, 
with your experience, I am sure you have seen all kinds of 
things.
    And when you talk about teaching folks that they should not 
feel ashamed, they should just do what they have to do, as a 
result of these incidents was there more emphasis placed on 
those kinds of things? Or is this something that just boils 
down to judgment?
    Admiral Brice-O'Hara. Mr. Chairman, there were a lot of 
questions embedded in that.
    Mr. Cummings. I know, and I am sorry. I apologize.
    Admiral Brice-O'Hara. Let me go back to the first part, and 
your question was about the relative experience of one----
    Mr. Cummings. Yes, a group of people being together, 
inexperienced, yes.
    Admiral Brice-O'Hara. Yes, sir. And, as a former commanding 
officer and commander, I would tell you that there is 
leadership responsibility on the part of the sector commander 
to assess who they have and look at anticipated rotations and 
then to have a frank dialogue with the assignment officers, 
both officer assignment officers as well as the enlisted 
assignment officers, to ensure that there is a holistic look 
each transfer season to then offset, as somebody more 
experienced is departing, to make sure that that is replaced 
with an experienced person.
    So there needs to be that give and take--we call it 
"command concerns"--that are articulated from the sector 
commander to our personnel command as they prepare for 
assignment rotations.
    Now, the second piece to that, sir: As you know, we have 
embedded civilian positions across the Coast Guard in both the 
sector command centers and the district command centers. Those 
civilians have provided absolutely central support to 
increasing the experience, the local knowledge, the proficiency 
of our watches. And those civilian employees do not rotate, so 
they are there to provide that thread across the military 
moves.
    We have invested in training. We brought a new course 
online just this past year, 2009. We brought online----
    Mr. Cummings. When was that? Do you know what month that 
was?
    Admiral Brice-O'Hara. I would have to get that question 
back to you, sir.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T2608.030
    
    Mr. Cummings. I just want to know how new it is and how 
many people have been trained. I mean, I assume that some 
people have completed the training?
    Admiral Brice-O'Hara. Yes, sir.
    Mr. Cummings. And I just would like to know a little bit 
more about it when you get a chance.
    Admiral Brice-O'Hara. Yes, sir.
    Mr. Cummings. How many people? How often? How are they 
selected? Things of that nature.
    Admiral Brice-O'Hara. This is a course that is 
approximately 3 weeks in length, sir. It is the Command Center 
Watchstander Course, administered at Training Center Yorktown 
as part of our Command Center Standardization Team. Those two 
programs are married together.
    We have had one convening this year in April of 2009, and 
32 individuals completed that course. We anticipate a 
throughput of upwards of 64 per year. Quite honestly, we have 
taken a little bit of a pause. We want to go back and take a 
look at that curriculum and fine-tune it, so the next class 
will be delivered in December of this year.
    Mr. Cummings. And where is it?
    Admiral Brice-O'Hara. Yorktown, Virginia, at the training 
center, sir.
    Mr. Cummings. Okay. I would like to come down and visit, 
just to observe, if you don't mind.
    Admiral Brice-O'Hara. Yes, sir. We would welcome that.
    I also want to point out that, in addition to the Command 
Center Standardization Team, which we would like to have visit 
every command center on a biannual basis--currently, they are 
on a triennial basis because of some staffing issues--we also 
want to complement that very rigorous examination with a 
similar program managed by the district command centers with 
oversight of their sector command centers.
    So, ultimately, as we get our staffing correct and move 
forward on our planned visit program, every sector would be 
visited one year by the Command Center Standardization Team and 
then the next year by a district assessment team at the sector 
level. So that will help bring us up to a higher level of 
consistency and standardization.
    Now, I am not sure that that gets yet to your question 
about experience and judgment and analytical thought. Mr. 
Chairman, what I would like to point out in that regard is that 
both the maritime search and rescue planner course and the 
command center watchstander course have extensive scenario-
based exercises and drills embedded into those curricula. We 
purposely extended the maritime search and rescue planner 
course this last year by several additional days so that we 
could run them through scenarios. We have embedded 2 weeks' 
worth of scenarios into the 3-week curriculum of the command 
center watchstander course.
    When our Command Center Standardization Team visits a unit, 
much of that visit is scenario-based. And that scenario is 
personalized to the sector, to the types of operations and 
geographic area and customer base that are within that sector.
    So we know that one of the best ways you get better is to 
be faced with very hard, difficult cases and work through them. 
And we have brought that into our training and our curriculum 
and our regular assessment of our sectors and districts, sir.
    Mr. Cummings. Just before we go to Mr. LoBiondo, let me ask 
you this. One of the things that--and this is sort of an 
analogous situation, but when we have the bar exam in Maryland, 
normally what they do is they take two or three actual cases 
and put them on the bar examination. You never knew what cases 
they were, but they used to do that all the time, so everybody 
is reading every case that comes up over a year or 2 before the 
bar.
    And I am just wondering, do you use--you talk about really 
bringing it to real life and personal. Do you use cases in 
these courses that have actually happened and said, you know, 
"This is what happened right here just a year ago," a month 
ago, whatever, and not beating up on anybody but actually 
showing them exactly what needs to be done so that they know. I 
mean, this is not some hypothetical. This is real stuff.
    I mean, do we use them? Or is it sort of like everybody 
knows about them, and they sort of talk about them under their 
breath, but they don't actually put them out there? Do you 
follow me?
    Admiral Brice-O'Hara. Oh, no, sir. We approach this with 
the greatest honesty and internal examination and do provide 
actual cases in our training curricula.
    Mr. Cummings. Good.
    Admiral Brice-O'Hara. I cannot tell you today that the 
Patriot case has embedded itself into our training, but it will 
be. We are still working through the marine casualty 
investigation.
    Mr. Cummings. I understand.
    Admiral Brice-O'Hara. We are still working through the 
follow-on from the final action memorandum from Vice Admiral 
Papp. So it is probably a bit premature, but I will assure you 
the Patriot case is going to go into our study curricula and be 
used, discussed, and learned from for future generations.
    Mr. Cummings. Thank you very, very much.
    And, to the panel, we are going to have a second round of 
questions.
    Mr. LoBiondo?
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Admiral, we have talked about the standing duty for not 
more than 12 hours in a 24-hour period and how that all comes 
together. Do you believe that the Coast Guard has adequate 
resources and personnel to transition to the 12-hour watch 
system for command duty officers?
    Admiral Brice-O'Hara. In direct answer to that, sir, I 
would tell you that we do not have the resources. As you may 
know, sir, we do not have a full-time command duty officer at 
every sector yet. That is our desire, but we don't have a full-
time, dedicated command duty officer populating those 35 
sectors. And if we were then to require a 12-hour as opposed to 
the 24-hour watch, we would need additional resources, sir. And 
that is why we have taken the concept of using collateral duty 
watchstanders as opposed to the alert watch for that particular 
position.
    Mr. LoBiondo. This is sort of related. The Coast Guard is 
authorized at an end-of-year strength of 45,000 active-duty 
personnel. Do you think that this is adequate to develop 
service men and women with the specialized skills necessary to 
direct search and rescue and other programs? Is that 45,000 
number enough?
    Admiral Brice-O'Hara. As you know, Mr. LoBiondo, we have 
many complex missions and demands on the Coast Guard. We will 
put to best use every position that comes to the Coast Guard. 
And there are more than enough ways that we could gainfully 
employ the individuals as new positions come onboard.
    I have to be very frank in saying that, as we have brought 
more than 200 positions onboard this year just for our sectors, 
we have the whole dilemma of juniority. It is going to take us 
some while to get those people recruited and hired and in place 
and experienced. So, as positions come online, it is not like 
we can immediately have someone ready to go in that new job.
    So it is a growing process that has many different aspects. 
It is very complex to bring people into the Coast Guard.
    Mr. LoBiondo. Admiral, have command centers been instructed 
to make use of all available positioning and identification 
tools as part of the search and rescue mission?
    Admiral Brice-O'Hara. Yes, sir. And I think you know how 
powerful the Rescue 21 system is from some of the very initial 
work that was done in New Jersey.
    And we continue to move forward with the Rescue 21 program. 
We have not built out all of our sector commands. We have made 
good progress across the Southeast, in the Gulf region, in the 
Northwest. We still have build-outs to do in 2009-2010 in New 
England and in California. And then, the following year, we 
will focus on the island sectors, the Great Lakes, followed by 
the Western rivers, and finally Alaska. The Rescue 21 system 
will not be completely built out until 2017.
    But we know from all of our use thus far that it is 
tremendously capable when it comes to taking the "search" out 
of searching because we have that direction-finding capability. 
We have much clearer communications. We have the ability to 
monitor up to five channels of communications. We have the 
ability to communicate with our partners.
    For all of those reasons, Rescue 21 has greatly enhanced 
our performance, and we look forward to completing that 
acquisition program.
    Mr. LoBiondo. And my last question for now, Admiral: Do 
Coast Guard personnel have the capability to e-mail and 
communicate with fishing vessels through the VMS system?
    Admiral Brice-O'Hara. Yes, sir. There have been a lot of 
questions about VMS, and let me clarify a couple of things.
    It is one tool in our kit bag of tools. It is a system 
owned by NOAA Fisheries for a very specific purpose that is not 
search and rescue. However, the VMS plot provides a good 
snapshot of the vessels that are under way on the fishing 
grounds at a particular time, if they are required to be 
outfitted with VMS. Nationally, we estimate we have 85,000 
fishing vessels between those that are commercially licensed 
and State-registered. Only about 7 percent of those vessels are 
required to carry VMS.
    When it is available to us and we do get a feed from NOAA 
and our watchstanders can pull that up at their desktops on the 
Common Operational Picture, they can see where a vessel is 
tracking at a particular time. And the VMS feature does allow 
for an e-mail to go out to the vessel, but there is not 
necessarily a mechanism to get a return to know that that e-
mail has been acknowledged.
    We have proactively used VMS. As a recent example, in the 
First District, in preparing for hurricanes, in an effort to 
warn all of those who were out on the high seas as Hurricane 
Bill was approaching, one of the ways we communicated with the 
fishing fleet was to send messages to them through VMS that 
also guided us in our maritime patrol overflights to see where 
the fishing fleet was accumulated to make sure we overflew and 
warned them of the pending weather.
    We have also been very proactive in using VMS to identify 
the fishing fleet and then to make sure that we could talk with 
them and that their EPIRB was properly registered. We learned 
that not every EPIRB on a fishing vessel in our recent sweep 
had been properly registered, and we were able to get that 
corrected. As you know, EPIRBs are another very important tool 
in saving lives in distress at sea.
    Mr. LoBiondo. Thank you.
    Mr. Cummings. Before we get to Mr. Bishop, let me just ask 
you one real quick question: Of those 218 people, you said 
those are new billets, is that right?
    Admiral Brice-O'Hara. Yes, sir.
    Mr. Cummings. Are these people, most of them, in the 
pipeline, or are they already assigned? I mean, right now, you 
said they are in different status. What is the situation? I 
just want to know where they are, because I think that would 
help all of us.
    Excuse me, Mr. Bishop. I just want to get that one answer.
    Admiral Brice-O'Hara. Sir, when we get the new billets, 
those positions don't come online until the second half of the 
fiscal year.
    Mr. Cummings. Right.
    Admiral Brice-O'Hara. So we have just gotten the positions.
    Mr. Cummings. Okay.
    Admiral Brice-O'Hara. They are in the process of being 
filled. It is going to take us a while to fill them because 
those who will be enlisted will need to go through the training 
system.
    Mr. Cummings. Right. When do you expect they will be all 
up, though? I guess that is what I am trying to get to. Do you 
have any idea?
    Admiral Brice-O'Hara. We should get back to you with a firm 
answer. It is going to take us a couple of years, sir, to hire 
everybody and get them trained.
    Mr. Cummings. I am not trying to push you. I am just trying 
to get an answer. In other words, I am trying to put all the 
things that we are talking about in some kind of context. That 
is all.
    In other words, I am just trying to figure out--you know, 
we do things up here, and I want to know, first of all, how 
long it takes what we do here to affect what you do there, so 
that we can make sure that we are doing all that we are 
supposed to do, so that you can be most effective and 
efficient.
    Admiral Brice-O'Hara. Yes, sir. And it is a recruiting 
process. It is recruit training for 7 1/2 weeks. It is the 
Class A school for several more weeks. It is the assignment to 
the unit. And then it is building the skills and credentials. 
It is going through the training at the unit, a rigorous 
performance qualification system. It is the certification. And 
then it is maintaining currency in the watch.
    All of that is going to take many months, if not a few 
years, to get the people whose positions came online this 
fiscal year to the point that we would call them ready, able, 
and very experienced watchstanders.
    Mr. Cummings. Thank you very much.
    Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman.
    And, Admiral, thank you for your testimony.
    I want to focus on what might be referred to as, sort of, 
natural or environmental impediments to the search and rescue 
mission of the Coast Guard. And, as I said before, I represent 
a coastal district. And one of the concerns that I have right 
now is the ability of the Coast Guard to have access to 
navigable channels, which relates to the work of the Army 
Corps.
    And so I guess my general question revolves around the 
issue of the coordination between the Coast Guard and the Army 
Corps and other governmental entities that the Coast Guard 
would be reliant upon in order to carry out its mission. I 
mean, my specific concerns--and I don't expect you to be able 
to deal with these specifically. But the Fire Island Inlet, 
right now, has sholed over as a result of both natural 
processes and some storms. That is impairing the Coast Guard's 
ability to conduct its search and rescue mission. But the Army 
Corps cannot, given its process, schedule a dredge of that 
inlet for several months. At Moriches Bay, we are having a hard 
time maintaining a navigable channel there. Shinnecock Bay, 
hard time maintaining a navigable channel.
    So I guess, as I say, my general question is: A, how would 
you characterize the interaction between the Coast Guard and 
the Army Corps? B, should there be a line item for funding in 
the Coast Guard budget relative to the dredging needs for 
navigable channels? Are there other impediments, sort of 
structural impediments, that perhaps the Congress can help with 
in terms of helping the Coast Guard perform its mission?
    Admiral Brice-O'Hara. Thank you for your question, Mr. 
Bishop. I am not familiar with that particular geographic area 
you described.
    Mr. Bishop. As I said, I wouldn't expect you to be.
    Admiral Brice-O'Hara. But I have certainly had much 
experience on the eastern seaboard and understand the continued 
problems with silting and constrictions of our waterways.
    The Coast Guard has a normal and natural dialogue with the 
Army Corps of Engineers at the port level through our sector 
commands, particularly with the area committees that are 
focused on environmental response, as well as the Area Maritime 
Security Committee that is focused on the safety and security 
of the region.
    There are ongoing discussions because the Coast Guard 
frequently has access to stakeholders, understands the needs of 
the waterway's users, and can help translate and be a voice to 
the Army Corps of Engineers as they determine where they will 
fund projects, where they will place their priorities in 
managing the dredging and other channel work that has to be 
accomplished. So I would tell you, at the field level, at the 
lowest levels, there are regular dialogues that occur with our 
Army Corps of Engineer professional partners.
    That also occurs here in Washington. From a program and 
policy interaction, there is an open dialogue with the Army 
Corps of Engineers. As recently as just a couple of weeks ago, 
Admiral Allen, our commandant, met with his counterpart, and I 
also have worked regularly with my counterparts within the Army 
Corps.
    You asked a question about funding, sir, and I think that 
appropriately belongs with the Army Corps of Engineers.
    Mr. Bishop. Well, thank you. I appreciate your response.
    But if your rescue mission is compromised, no reasonable 
person would argue that it is not. So that issue is not in 
dispute. And if the Army Corps says, "I am awful sorry, we 
understand the problem, but we have no funds," what is the 
answer? I mean, where do we go to solve this problem?
    And that is why I am asking the question of whether or not 
there ought to be some provision that allows the Coast Guard to 
declare, perhaps, some form of exigent circumstance that would 
either provide funding or would accelerate the Army Corps 
process or would, perhaps, use Coast Guard funding to take the 
place of the required local match, whether it is New York State 
or whether it is a county or whatever.
    So I know I am asking a bunch of different questions here, 
but my concern is that we are in the sort of situations in 
which the Coast Guard can't do its job because the Army Corps 
doesn't have the funding to do their job. And yet we are left 
with a problem that isn't resolved, and leaving the problem 
unresolved is not acceptable.
    So where do we go from here, I guess is my question.
    Admiral Brice-O'Hara. Sir, I think that I would like to go 
back and talk with our local commanders to determine whether 
our search and rescue mission has been degraded by the 
situation you have described.
    There are certainly other means of rescuing people in 
distress. Helicopter rescue would be one alternative if someone 
is in a waterway that we are not able to access. There 
routinely might be a situation where duck hunters are in 
marshes and our boats can't get there anyway, and a helicopter 
rescue would be appropriate. Or we would turn to one of our 
many partners. Certainly State and local partners who have 
assets, sometimes much smaller boats than the Coast Guard has, 
can trailer and get into those locations. Or we have some 
smaller, special-purpose craft that might be trailered to 
access an area.
    So I am not aware of any instance where access to channels 
has not permitted us to do our job effectively, sir.
    Mr. Bishop. I thank you.
    And thank you for the extra time, Mr. Chairman.
    Mr. Cummings. Thank you very much, Mr. Bishop.
    Mr. Coble?
    Mr. Coble. Thank you, Mr. Chairman.
    Admiral, good to have you with us.
    Admiral, much has been said about Rescue 21, and I want to 
continue along that line. How many miles of coastline are 
currently covered by Rescue 21, A? And, B, what areas lack 
coverage, and when do you anticipate full deployment?
    Admiral Brice-O'Hara. Thank you for your question, Mr. 
Coble.
    We have more than 28,000 miles of coastline that are 
currently covered by the Rescue 21 system. Our next priorities 
are the New England area, the two sectors in northern and 
southern New England. We then will focus on rollout in southern 
California, followed by the island sectors--San Juan, Guam, and 
Hawaii; the Great Lakes; then the western regions of river 
systems off the Mississippi; followed by Alaska.
    Mr. Coble. And when do you anticipate full deployment?
    Admiral Brice-O'Hara. Full deployment will not be completed 
until 2017, sir.
    Mr. Coble. Oh, I think you said that earlier.
    You may have touched on this, Admiral, but let me revisit 
it. Generally, how is Rescue 21 improving and enhancing the 
Coast Guard's search and rescue capabilities? And could the 
system be expanded for application in areas other than search 
and rescue cases?
    Admiral Brice-O'Hara. Sir, I would point to, first, just 
generally much clearer, better communications. The old system 
often was spotty; you would have garbled transmissions. We have 
great clarity with the tower array and updated, sophisticated 
equipment that has been installed.
    So we also have then the capability to direction-find, and 
often the array of towers allows us to actually plot a 
position, so that tells us exactly where the call originates. 
We can get to that mariner in distress much more quickly.
    There are multiple communications channels, so the 
watchstander can be working multiple cases as necessary at any 
point in time. We have better interoperability with our 
partners because of the channels that are available with the 
Rescue 21 array.
    Admiral Brice-O'Hara. We also have the ability to play 
back. A lot of times we need to clear up the transmission, so 
the automatic playback feature is much more manipulable than 
previously, and allows us to clear out any background noise so 
that we better understand what the mariner is telling us.
    The Rescue 21 system also has provided us with an ability 
to get coverage out to 20 miles. That is its published 
coverage, but I will tell you it has proven itself beyond that 
20-mile costal range. So we have been very impressed with the 
Rescue 21 system. And as I mentioned, over the course of the 
next 3 years we are going to focus on completing the 
continental United States, the islands, and then the last piece 
will be Alaska in 2017.
    Mr. Coble. And do you see any other areas other than search 
and rescue where this can be utilized?
    Admiral Brice-O'Hara. Well, it would help us with all of 
our missions in terms of the communications capabilities, the 
playback features, law enforcement cases. Rescue 21 certainly 
enhances first and foremost our legacy mission, our most 
critical mission of search and rescue, but it will suit our 
needs in the coastal regions across all of the mission sets 
that are prosecuted by our districts and our sectors.
    Mr. Coble. Thank you, Mr. Chairman. I yield back.
    Mr. Cummings. Thank you very much, Mr. Coble.
    Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    I am going to start off, first of all, with a comment 
following up on Mr. Bishop's question, and then my question for 
our witness today.
    What Mr. Bishop was referring is that the HMT--and I think 
you are aware that we brought forward legislation, HMT reform--
the harbor maintenance tax is collected for port dredging and 
port maintenance. Currently, we receive from Customs 
approximately $1.3 billion, and yet the appropriators only 
spend approximately $600,000. And so currently there is a 
surplus of over $4.5 billion in that account, HMT, for port 
maintenance and port dredging. So I hope and would look forward 
to working with you, Mr. Chairman, and Mr. Bishop, in bringing 
that forward if that can assist the Army Corps to address some 
of our longstanding needs that we have.
    Mr. Cummings. We will do that.
    Ms. Richardson. In terms of my question for our witness 
here today, I represent the area of the Port of Long Beach and 
Los Angeles, which are the largest ports in this Nation. And 
before I say that, let me first of all say, and I apologize, to 
thank you for all of your work.
    In the Los Angeles area, over 415 search and rescue 
missions are performed annually, and so, despite all the 
challenges and the things we have talked about today, many 
lives are being saved, as well as property, and so we thank you 
for your work.
    My question is, in my particular area, the larger ships are 
beginning to come in and out of those particular ports. Some of 
them are as high as 10,000 TEU vessels, which means that the 
ships are basically longer than the Empire State Building is 
tall. And so my question is, what steps have you taken to 
prepare for, in the event of a disaster or search and rescue 
that needs to be done, to be able to deal with these larger 
ships?
    Admiral Brice-O'Hara. Good morning, and thank you for your 
question.
    The complexity of the waterways users, as we see 
increasingly greater sized vessels, as you have cited, has 
prompted the Coast Guard to think about how we prepare 
ourselves for a mass rescue operation. We plan, we drill and 
exercise, but I will tell you it is not going to be only a 
Coast Guard response. When we get to something of that 
magnitude, it is going to require all of our professional 
partners.
    And so when we drill and practice, we bring our local, 
other Federal, and certainly the State partners into those 
exercises so that we know that we have the same protocols in 
place, that we will respond accordingly, that we have the 
ability to communicate, and that we understand one another's 
roles, authorities, and capabilities.
    When we have an incident of that nature, we are going to 
see that move to a Unified Command. Something that large is 
going to require us to stand up our Incident Command system and 
have a very well, nuanced, and deeply integrated response to a 
situation like that.
    Ms. Richardson. Let me be more specific, and I am glad you 
referenced what you did. In my particular port area, the Port 
of Los Angeles has the larger fire boats, which can shoot large 
enough the water over some of these larger vessels. However, 
the Port of Long Beach, for example, does not have this fire 
boat and many ports across this Nation do not. Are you aware of 
which ports do or do not have the larger vessels or the larger 
crew ships that are coming into port? Have you evaluated, are 
they properly prepared to be able to work with you to respond?
    Admiral Brice-O'Hara. I am not personally aware, but I can 
assure you that the sectors commanders, as part of their 
planning and preparedness, are very much aware of the assets 
that are available within the port. And one of the things that 
we have done with fire departments is share our own vessel 
plans with them and bring the firefighters onto our vessels so 
that if we were to have a problem, they have walked through, 
they understand the layout. But more importantly, getting to 
others who might be in distress, we have worked very closely to 
improve the maritime proficiency, understanding, knowledge, 
awareness of firefighters who may not have that depth of 
experience. Certainly, if they are on the fire boats, they 
probably do, but a lot of times it is also going to be a 
shoreside response.
    Ms. Richardson. Ma'am, what I am saying and what I would 
like to ask you to do is to evaluate the ports of entry that 
you support to determine whether they have sufficient fire boat 
capability to address and to assist you, if need be. It is my 
understanding it does not exist, it is not in place, and that 
many of our ports, if we were to have ships collide, whatever 
situations were to occur, you would not have the sufficient 
water support to deal with the situation.
    So if you could come back to the Committee or supply in 
writing for us where those incidents might be the case, and if 
fire boats need to be recommended from this Committee from a 
funding perspective.
    Admiral Brice-O'Hara. Yes, ma'am.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2608.031
    
    Ms. Richardson. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Cummings. Thank you very much, Ms. Richardson.
    Just a few more questions, Admiral.
    What are the specific efficiencies and improvements that 
have been made in the conduct of SAR cases that you can 
attribute specifically to the creation of sectors? That is one 
question. And two, you talked about what we have learned from 
the cases that I have mentioned in my opening statement and the 
establishment of these--I guess you call it courses? Are there 
other things that we have done since these incidents to try to 
improve our efficiency and effectiveness?
    Admiral Brice-O'Hara. Yes, sir. Mr. Chairman, having the 
experience of being in a group that then became the activities 
and very much the model for the sectors, I saw marked 
differences in the integration and cohesion of Coast Guard 
operations in the region because of the combining of the legacy 
Marine Safety Offices with the group offices.
    Previously, it was the groups that had the assets, it was 
the Marine Safety Offices that had relationships, the 
compliance and prevention aspect of the work. And so by 
bringing those two together, we have a much better opportunity 
to provide consistency to our partners to provide integrated 
operations that look holistically across the mission sets and 
requirements of our service. So I think that the first thing 
that I would point to is better cohesion, better integration 
across our mission sets.
    Specifically to search and rescue, as we have brought these 
communities of experience and background together, we do our 
jobs better because of the deeper understanding of both 
prevention and the compliance regimes that the Marine Safety 
Program has to carry out, and how those can help us raise 
levels of preventative activities and to guard against 
accidents happening.
    It also has helped us learn better how to dialogue with key 
stakeholders. We have a number of search and rescue 
professionals that we have to work with. Whenever we have a 
search and rescue case, we look for the best provider, and it 
might not be a Coast Guard asset that is available at that 
time. So a response organization plans better because of the 
deeper experience, and we communicate and work with our 
stakeholders and partners better because of the things we have 
learned by melding these two distinct cultures into the one 
sector construct.
    Specifically, to the watch standing, because of the 
consolidation into sector commands, we have had to look very 
hard at our staffing of these organizations. And that, combined 
with a series of studies as well as the lessons learned from 
the Morning Dew case forced us to grapple with how to stand the 
watch better. And that is what has led us to a sector command 
center that answers to the deputy sector commander, not to 
response, not to prevention, recognizing that those two have to 
both be served by the command center, but this is an important 
enough entity within the sector that it needs to report 
directly to that deputy commander.
    We then have been able to fine-tune what is expected of the 
watch that has led us to the operations unit, the 
communications unit, and the situation unit in each of our 
sectors. And the billets that have come on in the last year 
will help us completely build out those situational units at 
the sectors.
    You talked earlier about the Morning Dew and the watch 
stander being fearful of not needing to wake someone up. Not 
only do we have that communications watch stander on the alert 
12-hour watch now, we have the operations unit, our SAR-skilled 
individual on an alert watch now. In Morning Dew, that is the 
person that was sleeping, but we now have that person standing 
the alert 12-hour watch at our sectors. Those two are the key 
positions. They are facilitated by the information that is 
managed, the situation awareness that occurs in the third unit 
of 12-hour alert watches at our sectors. So as part of the new 
organization, it was a fine-tuning and honing of the watch 
structure that we would imbed within these new organizations.
    Mr. Cummings. Let me just move on to another subject very 
quickly.
    I want to look more closely at some of the issues raised by 
the Buona Madre case. Our focus today is on SAR, but this case 
does raise a number of questions regarding casualty 
investigations and other issues that the Subcommittee has 
examined in some detail in the past. Again, I understand that 
the Coast Guard is a named party in a legal action arising from 
the Buona Madre case, but I do want to at least raise some of 
these issues, and if I am stepping over the line, you just tell 
me.
    The casualty report on this Buona Madre incident indicates 
that the Eva Danielson "failed to comply with navigational rule 
number 5 in its failure to post a lookout, rule number 6, safe 
speed, rule 7, risk of collision, and rule 19, conduct of 
vessels in restricted visibility, rule 35, sound signals and 
restricted visibility."
    As a result of the investigation into the Buona Madre 
incident, the report indicates that the Coast Guard referred a 
civil penalty enforcement action against KS Aries Shipping for 
violations of 46 U.S.C. 2302(a), and it goes on. There was 
another violation alleged for bridge operation, ship handling, 
and another one for collision. Are you familiar with all that?
    Admiral Brice-O'Hara. Yes, sir.
    Mr. Cummings. What is the status of the civil penalty case 
now?
    Admiral Brice-O'Hara. Mr. Chairman, that civil case was 
dismissed without penalty, so the sector has the opportunity to 
resubmit that. It was returned to Sector San Francisco last 
November. They are continuing to process that and intend to 
send that civil penalty forward again, sir.
    Mr. Cummings. You know, it is interesting, I was kind of 
surprised by--I just wondered what happened to the case. I 
mean, we have a vessel that has allegedly falsified 
information, run over a fishing vessel and killed a fisherman, 
allegedly, and yet apparently the civil penalty case pertaining 
to this matter wasn't developed to the degree where it could 
withstand certain scrutiny. And as a lawyer, I know all kinds 
of things happen in cases, but I just want to make sure that we 
have the kind of personnel we need putting these cases 
together, I guess. That is what I am trying to get at.
    Admiral Brice-O'Hara. Mr. Chairman, I don't think it was an 
issue of the substance and content of the civil penalty case 
that was forwarded recommending that penalty; rather, it was 
the question the hearing officer had as to who should be held 
accountable as we set that case forward.
    Mr. Cummings. Now, I note that this Subcommittee has 
examined the Casualty Investigation Program at Sector San 
Francisco previously, and during the Cosco Busan incident. 
Regarding that incident, the DHS Inspector General found that 
five of the six individuals assigned to marine casualty 
investigator billets were not qualified for those positions. 
All three of the individuals who responded to the Cosco Busan 
were unqualified as marine casualty investigators. Likely, as a 
result of the inadequate training and experience and the use of 
inadequate manuals, the investigators who responded to the 
Cosco Busan failed to identify, collect and secure perishable 
evidence related to this casualty.
    Additionally, the Coast Guard incorrectly classified the 
investigation of the Cosco Busan casualty as an informal 
investigation rather than a formal investigation. Does the 
apparent failure of the effort to prosecute the Eva Danielson 
suggest that there are continuing shortfalls with the casualty 
investigation program in Sector San Francisco? I know what you 
just said, but I am just curious. And has this situation 
improved, the one that I just talked about?
    Admiral Brice-O'Hara. Mr. Chairman, we know that we had 
shortcomings in our Marine Safety program, and we specifically 
have embarked on a Marine Safety Improvement Plan. The Cosco 
Busan case, the Buona Madre case are indicators of, again, that 
rigorous self-examination and the knowledge that we must do 
better.
    With the Marine Safety Improvement Plan, it went into place 
in May of 2008, so this was after the Buona Madre case had 
already occurred, we have laid out a course, and we are making 
progress on that course to return our skills and our 
proficiencies to the high standards that they need to be.
    This is a very deliberative process that is going to take 
us several years. Our plan stretches between fiscal year 2009 
and fiscal year 2014, measured progress as we bring billets on, 
as we improve skill sets, focusing on all of the marine safety 
missions. So it is looking at our licensing and documentation 
program, looking at our compliance and oversight, looking at 
how we manage investigations and accident follow-on, outreach 
and partnerships, recreational boating safety. All of that is 
embedded within the Marine Safety Improvement Plan.
    One key piece of that are Centers of Expertise that we are 
establishing in key locations around the country so that we 
have a cadre of senior mentors, if you will, who are able to 
help us. We have established a Marine Safety Center of 
Expertise in the Miami area that will focus on crew ship 
issues. We are in the process of standing up our Marine Safety 
Investigations Center of Expertise in New Orleans. We have 
picked key locations where there is a lot of that business that 
occurs naturally. New Orleans we have a plethora of 
investigative activities that occur within that sector already. 
We are collocating our Center of Expertise. We are putting in a 
staff of six experienced investigators who can help us as we 
develop doctrine, as we assess capabilities. If we have an 
investigation, they can actually send an investigator to 
assist.
    So those are some of the things that I would cite that are 
already happening through the Marine Safety Improvement Plan.
    Mr. Cummings. Let me ask you this, and this will be my last 
question; you know, when I listen to all the things that are 
happening, I am very pleased that we are going in the direction 
that we are going in because it is about making things better.
    As you were speaking, I was just wondering to myself, is it 
that we had a high standard, and for whatever reason slipped 
back? Is it that circumstances have changed that where--I mean, 
in the cases that we have talked about today, have 
circumstances changed where there is just a different 
environment? Has the post-9/11 stretching of the Guard and more 
responsibilities had an impact? I guess what I am trying to 
figure out--it may be a combination of all of those or none of 
those, I don't know, but I am trying to get to what you see as 
having gotten us to the point where we have to do all the 
things that you talked about, new courses, all the things you 
just talked about. And they are all good. But I want to make 
sure that we are on a path where if it is a thing of standards, 
if it is a thing of personnel, if it is stretched too far--
particularly post-9/11--whatever it is, that if we can get off 
the path of what appears to be a slipping back so that we can 
fix what we have and stay steady. I want to kind of know what 
your assessment is. And I know that is kind of a loaded 
question, but I am sure you have thought about this a lot. The 
Coast Guard, rightfully so, has earned a phenomenal 
reputation--I talk about the Coast Guard all the time. I want 
to make sure that that reputation stays intact and that the 
Coast Guard has everything it needs.
    Admiral Brice-O'Hara. I thank you for your support, Mr. 
Chairman. As I was considering the dialogue that we would have 
today, one of the things that crossed my mind was--you have 
probably seen the recent article, "First-Class Cadet Jacqueline 
Fitch: A Regimental Commander of the Coast Guard Academy." I 
think of individuals like her----
    Mr. Cummings. From my district----
    Admiral Brice-O'Hara. Yes, sir. I think of individuals who 
are young, promising, eager to serve, they have joined the 
Coast Guard because they want to make a difference. We have not 
lost that passion. We have not lost that bias for action. But 
there were periods before 9/11 where we were chronically 
underfunded, we were underresourced. Even before the Morning 
Dew case surfaced, we knew that we were stretching our people 
with the watches they were standing. Unfortunately, it took 
that crisis to enable us to get the resources to shift to the 
12-hour watch that people had been telling us. National 
Transportation Safety Board studies, our own studies pointed us 
to those 12-hour watches.
    So we have begun to get resources. We have applied those 
resources as they were intended by Congress. But it has taken 
us a while to be able to fill all of our positions and to grow 
the stature and the experience and the wisdom within our 
workforce for the missions that are becoming increasingly more 
complex.
    I think that the good news here is nobody is diminished in 
their desire to do well. The Coast Guard has not stepped back 
from the candid, hard examination of how we are performing, and 
that we have put interventions in place. And we now must stay 
the course and never step back from these very high standards 
that we have established and continue to push our people so 
that they are trained, guided, mentored, prepared, equipped, 
and with the right leadership to do the job that is expected of 
them by you, by the public, by the world.
    Mr. Cummings. Well, I want to thank you very much for your 
testimony.
    I was visiting one of the stations, and a fellow told me 
that when these hearings come on, that the Coast Guard watches 
them. I didn't know that. So everybody watches them. But the 
reason why I raise that is because I want it always to be 
understood that everybody on this Committee--and particularly 
this Subcommittee, I know--want the very best for the Coast 
Guard. We have a phenomenal amount of respect. And I don't 
think there is one Member of this Committee that does not 
understand that we as a Congress can do better by the Coast 
Guard. I know Mr. LoBiondo agrees with me because he talks 
about it all the time.
    We are going to fight with everything we have to try to 
make sure that you get the resources that you need to do your 
job. I know you didn't come here complaining. I asked you 
certain questions, and you just told the truth. But all we want 
is the very, very best for your personnel so that they can be 
the best. And so I really thank you very much.
    Mr. LoBiondo, did you have anything to add?
    Mr. LoBiondo. Mr. Chairman, I would just like to echo your 
comments that when we have incidents like this, we are 
interested in trying to drill down a little bit deeper; but 
just a remarkable record of service for men and women who have 
dedicated their lives under incredibly difficult circumstances 
on many occasions, doing a great service to our Nation in many 
different respects. And our heartfelt thanks goes out to 
everyone in the Coast Guard for the tremendous job and the 
service they are rendering to our Nation.
    Mr. Cummings. Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T2608.032
    
    [GRAPHIC] [TIFF OMITTED] T2608.033
    
    [GRAPHIC] [TIFF OMITTED] T2608.034
    
    [GRAPHIC] [TIFF OMITTED] T2608.035
    
    [GRAPHIC] [TIFF OMITTED] T2608.036
    
    [GRAPHIC] [TIFF OMITTED] T2608.037
    
    [GRAPHIC] [TIFF OMITTED] T2608.038
    
    [GRAPHIC] [TIFF OMITTED] T2608.039
    
    [GRAPHIC] [TIFF OMITTED] T2608.040
    
    [GRAPHIC] [TIFF OMITTED] T2608.041
    
    [GRAPHIC] [TIFF OMITTED] T2608.042
    
    [GRAPHIC] [TIFF OMITTED] T2608.043
    
    [GRAPHIC] [TIFF OMITTED] T2608.044
    
    [GRAPHIC] [TIFF OMITTED] T2608.045
    
                                    

</pre></body></html>
